VISA® Unicorn Credit Card
Important Disclosures
Rates, Fees, and other important information about the VISA® Unicorn Credit Card (“Unicorn Card” or “Card”) are set forth
in these Important Disclosures, which are part of the VISA® Unicorn Credit Card Cardholder Agreement (“Agreement”). The
terms of the Agreement, including these Important Disclosures, may be changed at any time subject to applicable law. Based
on our evaluation of your credit report and other factors, if approved for a Unicorn Card, you will receive a credit card account
("Account") with a minimum credit line of $500. For purposes of these disclosures, “you” and “your” mean each person who
applies for an Account.
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

17.76%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

24.99%

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each Billing Cycle. We will
not charge you any Interest on purchases if you pay your entire balance by the
due date each month.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees

None

Penalty Fees
• Late Payment

Up to $25.

• Returned Payment

Up to $25.

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)” and we
calculate a separate average daily balance for your Purchase balance and your Cash Advance balance. See section 4.E
“Balances Subject to Interest Rates” for further details.
Billing Rights Summary: Information on your right to dispute transactions is included in the Agreement.
How the Variable APRs and Daily Rate on your Account are Determined: The Purchases APR on your Account will be
determined each Billing Cycle by adding a 14.51% margin to the Prime Rate (U.S.) as published in the Money Rates section
of The Wall Street Journal (the “Index”), which was 3.25% as of the end of the preceding calendar month. Currently, the
Daily Periodic Rate for Purchases is 0.0486575% and the Daily Periodic Rate for Cash Advances is 0.0684657%.
Important Information About Procedures for Opening a New Account (USA PATRIOT Act): To help the government
fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify

1

and record information that identifies each person who opens an account. What this means to you: When you open an account,
we will ask for your name, address, date of birth, and other information that will allow us to identify you. We may also ask
to see your driver’s license or other identifying documents.
About This Credit Card Program: Credit cards are issued by Wilmington Savings Fund Society, FSB (“WSFS Bank”), a
federal savings bank headquartered in Wilmington, Delaware. VISA is a registered trademark and service mark of VISA
International Service Association, and is used pursuant to a license.
Card Eligibility: To be eligible for an Account, you must meet certain minimum income, residency, age, credit quality
and other requirements.
Calls and Texts; Monitoring/Recording of Telephone Calls: When you give us your mobile phone number, we have your
permission to contact you at that number about your Account. Your consent allows us to use text messaging, push
notifications, artificial or pre-recorded voice messages and automatic dialing technology for informational and Account
service calls, but not for telemarketing or sales calls. It may include contact from companies working on our behalf to service
your Account. Message and data rates may apply. See Section 8A of the Agreement for more detailed information. You agree
that your calls with us and our servicing agents may be monitored and/or recorded, unless expressly prohibited by applicable
law.
Information Sharing: A Notice describing our Privacy Policy is at the end of the Agreement. A Privacy Notice for our
servicing agent, Cred.ai, is available online at www.unicorncard.ai/Privacy-Policy.
Information About Applying for a Credit Card: By electronically signing an application for an Account, you authorize us
and our agents and representatives to obtain credit, employment and other information about you, including credit bureau
reports, in order to evaluate your application for credit. If your application is approved and credit is extended to you, you
further authorize us to re-verify any or all of such information from time to time, including obtaining additional credit bureau
reports, for any legitimate or permissible purpose in connection with such extension of credit, such as for the purpose of
reviewing the Account, increasing or decreasing the Credit Limit on the Account or taking collection action on the Account,
and to furnish information concerning your Account and our credit experience with you to consumer reporting agencies and
others who may properly receive that information. If you ask, you will be informed whether or not a consumer report was
requested, and if a report was requested, you will be informed upon request of the name and address of the consumer reporting
agency that furnished the report. You agree that all credit card applications remain our property. By submitting a credit card
application to us, you also certify that all the information you have provided is true and complete, that no essential information
has been omitted, and that no misrepresentations have been made on the application. If approved, you agree to the terms and
conditions applicable to the Account, including these Important Disclosures and the remaining terms of the Agreement, and
the right of WSFS Bank to change terms and add new terms to the Account at any time. By activating a Card or the Account
or allowing an authorized person to activate or use a Card or the Account, you personally agree to fully pay all amounts owed
in connection with the Account as required by the Agreement. You agree that the Account will only be used for lawful
personal, family or household purposes. You further acknowledge you are at least 18 years of age (19 years of age if you are
a resident of Alabama or Nebraska or 21 years of age if you are a resident of Mississippi or Puerto Rico).
THIS AGREEMENT CONTAINS AN ARBITRATION CLAUSE (EXHIBIT A). UNLESS YOU ARE A “COVERED
BORROWER” PROTECTED BY THE MILITARY LENDING ACT (THE “MLA”) OR UNLESS YOU
PROMPTLY REJECT THE ARBITRATION CLAUSE, IT WILL HAVE A SUBSTANTIAL EFFECT ON YOUR
RIGHTS IN THE EVENT OF A DISPUTE, INCLUDING YOUR RIGHT TO BRING OR PARTICIPATE IN A
CLASS PROCEEDING.
Additional Notices: Please see the additional notices at the end of the Agreement, including notices for residents of
California, Delaware, New York, Ohio, Oregon, Rhode Island, Vermont and Wisconsin (for married applicants).

2

VISA® Unicorn Credit Card
Cardholder Agreement
Please read all of this Agreement, including the Arbitration Clause (Section 11), and keep it for your records.
1. INTRODUCTION. This VISA® Unicorn Credit Card Cardholder Agreement, including the Important Disclosures (together, this
“Agreement”) creates your contract with us concerning the Account and the Card. This Agreement contains important information
about your Account, such as your Annual Percentage Rates and certain Fees. Any amendments to this Agreement will also be part
of this Agreement. This Agreement is effective immediately upon our issuance of an Account or Card upon approval of your
application.
A. Certain Definitions.
“Account” means your VISA® Unicorn Credit Card Account governed by this Agreement.
“Authorized User” means any person you allow to use your Account, whether through the use of the Card we provide you, the
Account number, access checks or otherwise. “Authorized User” also includes any person who, at your request, receives a Card
bearing the name of such person and allowing access to your Account. We may limit the number of Authorized Users permitted on
your Account.
“Billing Cycle” means the period of time between each monthly statement. Each monthly statement relates to a single Billing Cycle.
Each statement closing date is the last day of that Billing Cycle. A Billing Cycle begins on the first day following a statement date
and ends on the next statement date.
“Card” means any initial or replacement credit card that we issue to you or to any Authorized User. We may replace your Card with
another Card at any time. Before using your Card for the first time, sign the back of your Card.
“New Balance” means the total outstanding balance as of the end of a Billing Cycle, as shown on the monthly statement for that
Billing Cycle.
“We”, “us”, and “our” mean WSFS Bank and its successors, assigns, servicers, agents and representatives.
“You”, “your”, and “yours” mean each and every person who applies for and is granted or accepts an Account, and any person who
has guaranteed payment of this Account, individually and together.
B. Promise to Pay. You promise to pay us the amounts of all credit obtained on your Account resulting from transactions made
by you, any Authorized User, and all persons you or any Authorized User allow to use your Account. This includes all Purchases
and Cash Advances, as well as all Interest, Fees and any other charges owed under this Agreement.
C. Account Use and Acceptance. By using your Card or Account, or letting someone else use your Card or Account, you agree to all
the terms of this Agreement. You acknowledge that you received a copy of this Agreement.
You may use your Account for lawful personal, family, or household purposes. You must not use your Account for business
or commercial purposes, or to make a payment on this or any other credit account owned by WSFS Bank.
You may not use or permit your Account to be used to make any illegal transaction. We will not be liable if you engage in an
illegal transaction. We may deny authorization of any transactions identified as Internet gambling.
You may not use your Account to conduct transactions in any country or territory or with any individual or entity that is subject
to economic sanctions administered and enforced by the U.S. Department of the Treasury's Office of Foreign Assets Control.
D. Amending This Agreement. We may amend this Agreement at any time and for any reason, by adding, deleting or changing
any provisions of this Agreement, including provisions concerning Interest or Fees, in accordance with applicable law. We
may change this Agreement based on economic or market conditions, our business strategies or for any other reason, including,
but not limited to, reasons unrelated to you or your Account. We will notify you of amendments to this Agreement as required
by applicable law. If an amendment gives you the opportunity to reject a change, and if you reject the change in the manner
provided in such amendment, we may close your Account and may ask you to return all credit devices as a condition of your
rejection.

3

2. GOVERNING LAW. This Agreement is entered into in the State of Delaware, and we extend credit to you from the State of
Delaware. The laws of the State of Delaware, without regard to conflict of laws principles, and applicable federal law govern this
Agreement.
3. USING YOUR ACCOUNT.
A. Credit Availability.
1. Your Credit Limit(s). We have discretion to determine the Credit Limit(s) on your Account. We assign and disclose to you
an initial Credit Limit upon approval of your application and issuance of your Card. On each monthly statement, the total
Credit Limit on your Account is shown as the “Credit Limit” and the total credit available is shown as “Available Credit.”
Only a portion of the Credit Limit may be available for Cash Advances (the “Cash Advance Limit”). The amount of credit
available for Cash Advances is disclosed on each monthly statement as “Available Cash Advance.” At our discretion, at
any time, we may change any Credit Limit that applies to your Account, as permitted by law. We will notify you if we
change any Credit Limit. You may ask us to change any of your Credit Limits by contacting us by telephone at the customer
service number located on the front of your monthly statement or writing to us at the address for Billing Inquiries and
Correspondence located on the front of your monthly statement. We do not have to agree to any such request.
2. Available Credit. The amounts shown on your monthly statement as Available Credit and Available Cash Advance do
not reflect Purchases, Cash Advances, Interest, Fees, any other transactions, or credits which we receive and post to your
Account after the Closing Date of that monthly statement. As a result, the actual amount of Available Credit and Available
Cash Advance may be different from the amounts shown on your monthly statement. You may telephone us at the customer
service number located on the front of your monthly statement or write to us at the address for Billing Inquiries and
Correspondence located on the front of your monthly statement for your available credit.
3. Exceeding the Credit Limit. We are not required to approve any transaction that would result in the Account balance
exceeding the Credit Limit or the Cash Advances balance exceeding the Cash Advance Limit. However, we may allow
any such transaction at our discretion. If we refuse the transaction, we may advise the person attempting the transaction of
this fact.
B. Types of Transactions. You may use your Account to obtain credit for Purchases and Cash Advances.
1. Purchases. “Purchase” means the use of the Card, Account number, Mobile Device or other credit device to buy or lease
goods or services. A transaction that is defined as a Cash Advance is not a Purchase. If you use your Card to purchase
goods or services by telephone, mail, or internet, you agree that your signature is not necessary as identification in such
cases.
2. Cash Advances. “Cash Advance” means: (1) use of the Card, Account number, Mobile Device or other credit device to
obtain cash from a financial institution or an automatic teller machine (“ATM”); (2) if we choose to allow it in our
discretion, use of the Card, Account number, Mobile Device or other credit device to purchase a Cash Equivalent. A “Cash
Equivalent” includes traveler’s checks, savings bonds, foreign currency, money orders, wire transfers, lottery tickets, gift
cards, purchases or reloading o f prepaid cards, gaming chips and other i t e m s used for gambling transactions; or
(3) if we choose to allow it in our discretion, use of an access check you sign as drawer. An “access check” means a check
we send to you that can be used to obtain credit on your Account. Access checks will have an expiration date. An access
check may not be used after its stated expiration date. We will not honor an access check that posts after the expiration
date. We may decline an access check that posts prior to its expiration date if we suspect the access check to be fraudulent,
if your Account is not in good standing or has insufficient available credit at the time the access check is presented for
payment, or if the access check is damaged or unable to be processed.
3. Mobile Devices. Any Purchases or other transactions made using a smart phone, tablet or other electronic device on which
your Account number and/or other Account information has been stored or downloaded (“Mobile Devices”) are covered
by the terms of this Agreement. Apps that use your Account information to make transactions may have separate terms of
use. We are not responsible if you violate those terms, or for any consequences resulting from any violation of those terms.
4. Access Checks. You may not issue a postdated access check on your Account. If you do, we may, at our discretion, either
honor it upon presentment to us for payment, or return it unpaid to the person that presented it to us for payment, without
waiting for the date shown on the access check. We are not liable to you for any loss or expense as a result of either action.
If you want us to stop payment on an access check, telephone us at the customer service number located on the front of
your monthly statement or write to us at the address for Billing Inquiries and Correspondence located on the front of your
monthly statement. Give us the access check number, dollar amount and payee exactly as they appear on the access check.
We will not be liable to you if we cannot complete the stop payment request.

4

5. Foreign Transactions. If you make a transaction in a foreign currency (including for example purchasing online from a
foreign merchant), the transaction amount will be converted to a U.S. dollar amount by VISA International in accordance
with VISA International’s operating regulations or conversion procedures in effect at the time the transaction is processed.
Currently, those regulations and procedures provide that the currency conversion rate to be used is either the government
mandated exchange rate or the wholesale exchange rate, in effect one day before the date of the conversion, as applicable.
The currency conversion rate used by VISA International on the currency conversion date may differ from the conversion
rate in effect on the transaction date or posting date of the transaction. VISA International’s procedures may change without
notice.
6. Recurring Authorized Transactions. Recurring authorized transactions are automatic charges to your Account that you
establish with a merchant and authorize to occur on a regular basis, usually monthly. You must contact the merchant to
stop a recurring charge. Also, if we send you a new Card or Account number, for example because your prior Card expired
or was lost or stolen, it is your sole responsibility to provide merchants with updated Card or Account number information.
We are not liable for any Fees or other charges you incur because a recurring transaction did not transfer to a new Card or
a new Account number. Some merchants are able to automatically access your new Card or Account number, in which
case recurring transactions will continue.
C. Refusal To Honor Your Account. We have discretion to refuse to honor any transaction presented on your Account for any
reason or no reason. A merchant, business or financial institution may refuse to honor any transaction presented on your
Account. These include transactions made by Card, Account number, access check, Mobile Device, and any other credit device.
We are not liable for any refusal to honor your Account. We are not liable for retention of the Card by us, a financial institution,
or any provider of goods or services.
D. Statements.
1. General. By the fourth day of the month that follows each monthly Billing Cycle, if there was activity on your Account,
we will post your statement in your Cred.ai mobile app or your account at www.unicorncard.ai. Your statement will show what
you owe, the Minimum Payment Due, the Payment Due Date, your current Credit Limit, an itemized list of Fees, charges,
payments and credits posted to your Account during the Billing Cycle and other important information. We may also mail
or deliver the monthly statement to the address we have on file for your Account. However, we reserve the right to change
your Account Billing address if the U.S. Postal Service notifies us that your address has changed.
2. Change of Address. You must notify us promptly of any change in your address by contacting us at the customer service
number located on the front of your monthly statement or writing us at the address for Billing Inquiries and Correspondence
located on the front of your monthly statement. Until we receive, process and verify your new address, we may continue to
send monthly statements and other notices to the last address we have on file for your Account.
E. Credit Balance. We will make a good faith effort to return to you any credit balance that has been on your Account longer than
six consecutive Billing Cycles (or, at our discretion, for a shorter time period). You may also request a refund of a credit balance
on your Account at any time. We may reduce the amount of any credit balance on your Account by applying the credit balance
towards new Fees and charges posted to your Account. We do not pay any Interest on credit balances.
F. Payments.
1. General. You must pay each month at least the Total Minimum Payment Due by the Payment Due Date shown on each
monthly statement on your Account. At any time, you may pay us more than the Total Minimum Payment Due, up
to and including the total outstanding balance on your Account, without penalty. Any payments made in one Billing
Cycle will not count toward any Total Minimum Payment Due in the following Billing Cycle. Merchant credits or personto-person money transfers or other credits to your Account will not be treated as payments towards the Total Minimum
Payment Due, unless we decide otherwise in our absolute discretion. We have discretion to accept or reject any payment(s)
made on your Account when there is a credit balance (i.e., you do not owe any amount on your Account and prior payments
or credits have resulted in a credit balance on your Account).
We can accept partial or late payments without losing any of our rights under this Agreement. If you submit any payment
that is marked as “paid in full” or with other restrictive writing and is less than the total outstanding balance on your
Account, we can credit that payment to your Account and you will remain fully liable for any remaining total outstanding
balance above the amount of your payment. No payment shall operate as an accord and satisfaction without the prior
written approval of an officer of WSFS Bank authorized to provide such approvals.
You may not use a postdated check to make a payment. If you do try to use a postdated check to make a payment, we do
not have to wait for the date shown on the check and can either honor it upon presentment or return it uncredited to the

5

person who presented the check. We are not liable to anyone for any loss or expense arising from the action(s) we take with
respect to such postdated check.
2. Total Minimum Payment Due. The Total Minimum Payment Due in a Billing Cycle, shown on the statement for the
immediately preceding Billing Cycle (the “Prior Statement”), is equal to the greater of a) $25 or b) the sum of: 2% of the
New Balance on the Prior Statement, plus the amount by which the New Balance on the Prior Statement exceeds the Credit
Limit, plus all new Interest and Fees shown on the Prior Statement, plus all past due amounts, rounded up to the nearest
whole dollar. However, the Total Minimum Payment Due will never be greater than the New Balance on the Prior
Statement.
3. Payment Allocation. We allocate payments at our discretion, subject to applicable law. Typically the amount of any
payments, up to the Total Minimum Payment Due, will be allocated first to unpaid Fees and Interest, then to the balance
with the lowest APR and then to balances with higher APRs. Generally, payment amounts in excess of the Total Minimum
Payment Due will be applied to balances with higher APRs before balances with lower APRs.
4. Making Payments. We strongly encourage you to make payment by ACH. We do not accept payments in cash, and
payments by mail may lead to higher Interest and Late Payment Fees. You can arrange for ACH payments on either
a recurring or one-time basis by going online to www.unicorncard.ai. Credit for any payment we accept that is not made
in accordance with our payment instructions may be delayed for up to five (5) days. You may not include any restrictive
endorsements on any payment and we may disregard any such endorsements. Payments may be made by mail or online.
All payments must be in U.S. dollars and drawn on a U.S. bank. “Business Day” is defined as Monday through Friday,
excluding federal holidays.
a. By Mail. Mailed payments received by 5 p.m. local time at the location specified on the front of the monthly statement
after the phrase, “Please Mail Your Payments To” will be credited as of the date of receipt if: a single check or money
order, not cash, is in the envelope we provide, with the monthly statement payment stub; the check or money order is
in U.S. dollars and is issued by a financial institution in the United States; and, you follow the additional payment
instructions provided on or with the monthly statement. Payments received on a non-Business Day or after 5 pm local
time on a Business Day but that otherwise meet these requirements will be credited as of the next Business Day.
b. Online. Payments may be made online using www.unicorncard.ai. These online payments will be credited as of the
date received if the payment is in U.S. dollars and drawn on a U.S. financial institution. H o w e v e r , p ayments
received on a non-Business Day or after 5 pm Eastern Time on a Business Day but that otherwise meet these requirements
will be credited as of the next Business Day.
c. Delay in Crediting and Available Credit. We may reject or delay crediting payments that do not follow the
instructions above. For example, there may be a delay of up to five (5) days in crediting a payment by mail if it is
received at an address other than the address we specify for payments on your monthly statement or if it is received
without the required payment stub. Your available credit may not reflect a payment for up to 15 days after we have
credited a payment to your Account.
5. Electronic Check Conversion. Each time you send a check as payment, you authorize us either to use information from
your check to make a one-time electronic funds transfer from the account on which the check is drawn or at our option to
process the payment as a check transaction. Funds may be withdrawn from your bank account as early as the date your
check is received and you will not receive your check back from your financial institution. If we cannot process the
electronic fund transfer, or if it is returned to us, you authorize us to reinitiate the electronic fund transfer from your bank
account. Alternatively, we may at our option present the original check or a substitute check, draft or similar negotiable
instrument to obtain payment. If you have questions about electronic check conversion, you may telephone us at the
customer service number located on the front of your monthly statement, or write to us at the address for Billing Inquiries
and Correspondence located on the front of your monthly statement.
G. Unauthorized Use.
1. Unauthorized Use of Your Account. If any Card, Account number, access check, or credit device is lost or stolen, or if
you think someone used or may use them without your permission, including use on a Mobile Device, you must notify us
immediately by calling the customer service number located on the front of your monthly statement.
2. Your Liability for Persons Using Your Account. You are liable for: (a) any transactions made by you or an Authorized
User on your Account; (b) any transactions made by persons you allow to use your Account by providing access to any
Card, Account number, access check, any other credit device, or any other information that would enable a person to
conduct transactions that result in any charges to your Account; and (c) any Interest and Fees resulting from such use.

6

These transactions are subject to all terms of this Agreement. You are liable for all of these transactions including, but not
limited to, transactions for which you may not have intended to be liable, and transactions which cause your total
outstanding balance to exceed the Credit Limit.
H. Lost or Stolen Cards, Account Numbers or Access Checks. If any Card, Account number, access check or credit device is
lost or stolen, or if you think someone used or may use any of them without your permission, notify us AT ONCE by calling the
customer service number located on the front of your monthly statement. You agree that we may close your Account to new
transactions, change your Account number(s) and/or issue you a new Card or Cards with a different Account number(s) if we
have been notified of the possible loss, theft or unauthorized use. If we do this, you must notify anyone you have authorized to
submit and post charges to your Account of your new Account number. Do not use your Card or Account number after you
notify us, even if your Card is later found or returned.
Under VISA U.S.A. Inc.’s “Zero Liability Policy” you may not be liable for the unauthorized use of your Account or Card that
results in a fraudulent transaction made over the VISA network. To be eligible, you must notify us immediately of any
unauthorized use of your Account or Card. We will provisionally credit you for losses from the unauthorized Card use within
five Business Days of your notification to us of the loss. The VISA Zero Liability Policy does not apply to transactions made at
an ATM or to any transactions made using your PIN that are not processed by VISA. We may impose greater liability, or
withhold, delay, limit or rescind any provisional credit that we provide to you under the Zero Liability Policy, based on factors
such as your gross negligence or fraud, your delay in reporting unauthorized use, our investigation and verification of your
claim, your Account standing and history and other factors. If you are not eligible for the VISA Zero Liability Policy or it
otherwise does not apply, you may be liable for unauthorized use of your Account, but not for more than $50. You will not be
liable for any unauthorized use of your Account that occurs after you notify us of the loss, theft or possible unauthorized use
of your Card or Account number. We may require you to provide certain information in writing to help us find out what
happened. You also must identify for us any charges on your monthly statement that were not made by you or someone
authorized by you and from which you received no benefit.
4. INTEREST.
A. Interest Rates - Annual Percentage Rates (APRs). The Annual Percentage Rate or “APR” is a rate, shown as a percentage,
used to calculate Interest on your Account. We use different APRs for Purchases and Cash Advances. We use a Daily Periodic
Rate, with a corresponding APR, to calculate Interest on your Account. To get the Daily Periodic Rate we divide the APR by
365. You can find your initial variable APR and Daily Periodic Rate for Purchases and your fixed APR and Daily Periodic
Rate for Cash Advances in the Important Disclosures, which are part of this Agreement. The APRs for Purchases vary with the
market, based on the U.S. Prime Rate.
B. Variable APRs. We calculate variable APRs for Purchases by adding a percentage, called a “Margin,” to an Index. Each
Billing Cycle, the Index is the highest U.S. Prime Rate published in the Money Rates section of The Wall Street Journal on the
last publication day of the latest calendar month ended prior to the beginning of such Billing Cycle each calendar month (the
“Determination Date”). The APR may increase or decrease at the beginning of each Billing Cycle if the Prime Rate has changed.
This new APR will apply to the existing Purchases balance and to new Purchases. If the APR increases, you will generally pay
higher Interest and have a higher Total Minimum Payment Due. If The Wall Street Journal stops publishing the U.S. Prime
Rate, we may, in our discretion, substitute another Index as permitted by law. You can find the Margin used for your Purchases
APR and the U.S. Prime Rate used for your initial Purchases APR in the Important Disclosures included as part of this
Agreement.
C. Paying Interest; Grace Period on Purchases. Your Payment Due Date is at least 25 days after the close of each Billing Cycle.
We will not charge you any Interest on Purchases if you pay your entire New Balance by the Payment Due Date each Billing
Cycle. We call a Billing Cycle without Interest on Purchases a “Grace Period.” We will begin charging Interest on each Cash
Advance on the transaction date of such Cash Advance. The transaction date for access checks, if permitted, is the date such
check is first deposited or cashed, unless such check is created electronically in which case the transaction date will be the date
of the check’s creation. (You cannot avoid Interest on Cash Advances by paying the New Balance in full by the Payment Due
Date.)
D. Calculating Interest. We calculate Interest for a Billing Cycle by multiplying the Balance Subject to Interest Rate for each
Balance Type (Purchases or Cash Advances) by its applicable Daily Periodic Rate and the number of days in the Billing Cycle.
The total Interest for a Billing Cycle is the sum of the Interest for each Balance Subject to Interest Rate.
E. Balances Subject to Interest Rates. For each Balance Type, whether Purchases or Cash Advances, the Balance Subject to
Interest Rate is the Average Daily Balance for the Balance Type. The Average Daily Balance for a Billing Cycle equals the
sum of the daily Purchases or Cash Advances balances, as applicable, for each day of the Billing Cycle, divided by the number
of days in the Billing Cycle. However, the daily balance is never less than $0. Also, for Billing Cycles in which a Grace Period

7

applies, the Average Daily Balance for Purchases for that Billing Cycle is $0.
1. We get each day’s Cash Advances balance as follows:
a. For each day, we start with the previous day’s Cash Advances balance, if any.
b. We add any new Cash Advances and subtract any payments or credits applied to Cash Advances as of that day. This
means that a Cash Advance taken on one day and repaid the same day will never be reflected in any Cash Advances
balance and will never give rise to Interest.
2. We get each day’s Purchases balance as follows:
a. For each day, we start with the prior day’s Purchases balance, if any.
b. As of the first day of the Billing Cycle, if the immediately preceding Billing Cycle was a Grace Period we retroactively
subtract all payments and credits applied to Purchases and posted by the Payment Due Date in such Billing Cycle.
c. For each day in the Billing Cycle (including the first day of the Billing Cycle), we add any new Purchases posted to
your Account and subtract any payments or credits applied to Purchases as of that day. However, we do not subtract
a second time any payments or credits that have already been subtracted in step (b) above.
F. When We Start Charging Interest.
1. On each Cash Advance, we will begin charging Interest on the transaction date of such Cash Advance.
2. On each Purchase, we charge Interest from the post date on your Periodic Statement unless the Purchase posts during a
Grace Period. If the Purchase posts during a Grace Period but the next Billing Cycle is not a Grace Period, we start charging
Interest as of the first day of that next Billing Cycle on the portion of the Purchase, if any, that is not paid by the Payment
Due Date in that Billing Cycle. We do not charge Interest on any Purchase that is made during a Grace Period and paid in
full by the Payment Due Date in the next Billing Cycle.
G. Treatment of Fees and Interest; No Compounding. We do not charge Interest on Fees or Interest. We do not include Fees
or Interest in Purchases or Cash Advances balances.
H. NOTICE TO COVERED BORROWERS UNDER THE MLA - Statement of MAPR: Federal law provides important
protections to members of the Armed Forces and their dependents (“Covered Borrowers”) relating to extensions of consumer
credit. In general, the cost of consumer credit to a Covered Borrower may not exceed an Annual Percentage Rate of 36 percent.
This rate must include, as applicable to the credit transaction or account: (1) the costs associated with credit insurance
premiums; (2) fees for ancillary products sold in connection with the credit transaction; (3) any application fee charged (other
than certain application fees for specified credit transactions or accounts); and (4) any participation fee charged (other than
certain participation fees for a credit card account). Oral Disclosures. Before signing this Agreement, in order to hear important
disclosures and payment information about this Agreement, please contact us at 1-877-211-2551 for information and
disclosures on protections offered to you under the Military Lending Act.
5. FEES. You agree to pay the Fees described below whenever applicable.
A. No Annual Fee. We will not charge you Annual Fees or other participation fees.
B. No Transaction Fees
1. No Cash Advance Fees. We will not charge you Transaction Fees on Cash Advances.
2. No Foreign Transaction Fee. We will not charge you Transaction Fees on Foreign Transactions.
C. Late Payment Fee. We will charge you a Late Payment Fee if we do not receive at least your Total Minimum Payment Due
on or before its Payment Due Date. The Late Payment Fee is $25, provided, however, that the Late Payment Fee will not exceed
the Total Minimum Payment Due immediately prior to assessment of the Fee.
D. Returned Payment Fee. We will charge you a Returned Payment Fee if a payment on your Account is returned for any reason.
The Returned Payment Fee is $25, provided, however, that the Returned Payment Fee will not exceed the Total Minimum

8

Payment Due immediately prior to assessment of the Fee and will not exceed the amount of the payment being returned. Also,
we will not charge you more than a single Returned Payment Fee and/or Late Payment Fee with respect to the same Minimum
Payment Due. If any payment is returned unpaid, we may resubmit it to your bank. Your bank may charge its own overdraft or
non-sufficient funds fees in connection with returned payments.
E. Incidental Fees.
1. Replacement Card Fee. We may charge you up to a $20 Card Re-Issue Fee for each replacement Card we provide in such
calendar year.
2. Stop Payment Fee. If you ask us to stop payment on an access check, we may charge you a Stop Payment Fee of $35.
3. Paper Statement Fee. We may charge you a Paper Statement Fee of $25 each time you request and we provide you with a
paper copy of any monthly statement unless the request is made in connection with a written notice of a billing error. We
will donate the Paper Statement Fee to the National Forest Foundation.
4. Additional Fees. We may charge additional Fees for separate services we provide you, in accordance with applicable law.
6. DEFAULT.
A. Actions that Trigger Default. You will be in default of this Agreement if:
1. you do not make any required Total Minimum Payment Due by the applicable Payment Due Date;
2. you allow the total outstanding balance on your Account to exceed your Credit Limit and fail to reduce the balance to your
the Credit Limit immediately upon our demand;
3. you violate any term of this Agreement;
4. you submit a payment that is returned for insufficient funds or any other reason;
5. you voluntarily file for any form of bankruptcy;
6. an involuntary bankruptcy action is filed against you;
7. you provide any false or misleading information to us at any time, whether in writing, electronically or verbally;
8. you fail to promptly provide information in response to any request we make;
9. you die or a court enters an order declaring you to be either temporarily or permanently mentally incapacitated or incompetent;
or
10. you are in default of, or terminate or cause to be terminated, any other agreement you have with us or any of our affiliates;
B. Our Rights If You Default. If you default under this Agreement, we may take any and all actions permitted by law including,
but not limited to, requiring you immediately to pay the total outstanding balance on your Account, suspending your Account
until such time as the total outstanding balance has been paid, permanently closing your Account or taking any other actions
provided in this Agreement.
C. Collection Costs. Subject to applicable law, you agree to pay us for all collection costs incurred if we refer your Account for
collection to any attorney, collection agency, person or entity that is not our salaried employee. Collection costs include all
amounts permitted by applicable law including, but not limited to, attorneys’ fees, court costs, and collection agency fees.
7. CLOSING OR SUSPENDING YOUR ACCOUNT.
A. Our Right to Close or Suspend Your Account. We may close or suspend your Account at any time, unless prohibited by
applicable law. We may do this in our discretion, for any reason or for no reason, and without prior notice. The closure or
suspension of your Account does not relieve you of any responsibilities set forth in this Agreement. Upon the closing or
suspension of your Account, you remain fully liable for the total outstanding balance on your Account, including all transactions,
Fees and Interest that accrued prior to closure or suspension and any that accrue after your Account has been closed or

9

suspended.
B. Your Right to Close your Account. You may close your Account at any time by calling us at the customer service number
located on the front of your monthly statement or writing to us at the address for Billing Inquiries and Correspondence located
on the front of your monthly statement. Closing your Account does not relieve you of any responsibilities set forth in this
Agreement. Specifically, you remain liable for the total outstanding balance on your Account, including all transactions,
Interest, and Fees that have accrued on your Account and any that accrue after your Account has been closed.
C. Account Cannot Be Used After Closed. Once your Account has been closed by us or closed at your request, neither you, any
Authorized User(s) or any person(s) you or any Authorized User allow to use your Account are allowed to use your Account
for any transaction. Upon closing of your Account, you must: (1) destroy all Cards and access checks and any other credit
devices on your Account over which you have possession or the ability to access (including permanently removing any
programs allowing access to the Account on any Mobile Device); (2) cause all Authorized Users to destroy any Cards, access
checks and any other credit devices on your Account in their possession, and inform them that they must not attempt or make
any further transactions on your Account; (3) advise all persons you or any Authorized User allow to use your Account, that
they must not make or attempt or make any further transactions on your Account; and (4) advise all third parties to whom you
have given permission to make recurring charges on your Account that your Account is closed and they cannot make any future
charges to your Account.
You bear sole liability for any legal, financial, or other consequences that may occur after your Account is closed, including
the failure to have a recurring charge paid in a timely manner. We are not liable in any way for any legal, financial or other
consequences that may occur as the result of closing your Account.
8. COMMUNICATIONS WITH YOU.
A. How We Communicate With You. To the extent permitted by applicable law, you authorize us and our agents, assigns and
service providers (collectively, the “Messaging Parties”) to contact you using automatic telephone dialing systems, artificial
or prerecorded voice message systems, text messaging or push notification systems and automated email systems to provide
you with information about the Card, the Account and/or this Agreement, including information about upcoming payment
dates, missed payments and returned payments. You authorize the Messaging Parties to make such contacts using any telephone
numbers (including wireless, landline and VOIP numbers) or email addresses you supply to the Messaging Parties, including
in connection with the Application, the Messaging Parties’ servicing and/or collection of amounts you owe under this
Agreement, or any other transaction involving you and the Messaging Parties. You understand that anyone with access to your
telephone or email account may listen to or read the messages the Messaging Parties leave or send you, and you agree that the
Messaging Parties will have no liability for any resulting loss of privacy. You further understand that, when you receive a
telephone call, text message or email, you may incur a charge from the company that provides you with telecommunications,
wireless and/or Internet services, and you agree that the Messaging Parties will have no liability for such charges except to the
extent required by applicable law. You agree that this authorization constitutes a bargained for exchange. To the extent you
have the right under applicable law to revoke this authorization, you agree you may do so only by mail to: Card Services, Attn:
“TCPA Opt-Out,” P.O. Box 63688, Philadelphia, PA 19147. To stop emails, you can follow the opt-out instructions included
at the bottom of the Messaging Parties’ emails. If any telephone number you have provided to the Messaging Parties changes,
or if you cease to be the owner, subscriber or primary user of any such telephone number, you agree to immediately give us
notice of such facts so we can update their records. You understand and agree that, subject to applicable law, the Messaging
Parties may monitor and/or record any of your telephone conversations with any of their representatives, but they are not
required to do so.
B. Notices Concerning Your Account. You agree that we may send any and all required notices concerning your Account to the
physical address provided to us as your billing address. In addition, if you agree to email notifications, then we may send any and
all required notices to any email address you provide to us. Any notices we send to you, to your email or billing address, will
be deemed sent upon mailing.
9. INFORMATION SHARING. You authorize us to collect information about you as permitted by applicable law. We collect
information from credit reporting agencies and other third parties that have financial information about you. You authorize us to
share your Account information about you and any Authorized User(s) with our affiliates and third parties including credit reporting
agencies. Please see our Privacy Policy, which is included in your Account opening material. It describes the reasons WSFS Bank can
share its customers’ personal information.
10. Miscellaneous.
A. Account Benefits. We may offer you certain third-party benefits and services with your Account, as outlined in benefits
brochures or other documents and internet web sites. For example, certain eligible purchases charged with a VISA® Card may be

10

eligible for certain benefits or services through VISA U.S.A. Inc. (or its affiliates). Any benefits or services we make available
through third parties (including without limitation VISA U.S.A. Inc.) are not a part of this Agreement, but are subject to the
terms and restrictions outlined in the applicable benefits brochures or other documents or internet web sites provided or made
available to you from time to time. You agree that we may give information about you, any Authorized User, and your Account,
to any third party reasonably needing the information to provide you with such benefits or services. You also agree that we or
any third party providing any Account- related benefits or services may change, add, or delete benefits or services at any time
without notice to you.
B. Enforcing this Agreement; Severability. We may delay or waive enforcing any of our rights or exercising any of our remedies
under this Agreement or under applicable law without losing any of those rights or remedies. Even if we do not enforce our
rights or exercise our remedies at any one time, we may enforce or exercise them at a later time. Except as otherwise provided
in the Arbitration Clause, if any provision of this Agreement is found to be invalid or unenforceable, it shall not affect or impair
the validity and enforceability of all remaining provisions of this Agreement.
C. Headings. We use headings in this Agreement (e.g., Account Use and Acceptance) for convenience and organization. They
are for reference purposes only and do not impact the meaning of the provisions.
D. Assignment; Sale of Account. We may at any time, and without notice to you, sell, assign or transfer your Account, any amounts
due on your Account, this Agreement, or our rights or obligations under your Account or this Agreement to any person or
entity. The person or entity to whom we make any such sale, assignment or transfer shall be entitled to all of our rights and
shall assume our obligations under this Agreement, to the extent sold, assigned or transferred. You may not sell, assign or
transfer your Account or any of your rights or obligations under this Agreement.
E. No Security. Your Account is unsecured. We are not taking (and waive) any security interest in any property in connection
with your Account.
F. Evidence. You agree that we may use a copy, microfilm, microfiche or digital image of any monthly statement or other
document to prove what you owe us and that the copy, microfilm, microfiche or digital image will have the same validity as
the original.
G. Entire Agreement. This Agreement is the entire agreement between you and us relating to your Account. This Agreement
replaces any prior agreement relating to your Account. In the event of a conflict between this Agreement (including the other
documents that are part of this Agreement) and any other document, this Agreement will control unless otherwise expressly
provided in the other document.
H. Cardholder: Your name, address and signature (including any electronic or digital signature) and the date on any application
or solicitation or on any sales slip or other evidence of indebtedness on your Account represent your name, address and signature
and the date on this Agreement.
I.

11

Notice and Cure. Before starting a lawsuit or arbitration regarding a legal dispute or claim relating to this Agreement or the
Account (as more fully defined in the Arbitration Clause, a “Claim”), the party asserting the Claim (the “Claimant”) must
give the other party (the “Defending Party”) written notice of the Claim (a “Claim Notice”). The Claim Notice must explain
in reasonable detail the nature of the Claim, any supporting facts and the relief that is demanded. If we are the Claimant, we
must send the Claim Notice to you to the address or email address for you maintained in our records. If you are the Claimant,
you or an attorney you have personally hired must send the Claim Notice to UNICORN Credit Card Services, P.O. Box
63688, Philadelphia, PA 19147 (or such other address as we subsequently provide you). You (or your attorney) must provide
your full name, the last five digits of your Account number and a phone number where you (or your attorney) can be reached.
An attorney sending a Claim Notice on your behalf must attach a writing signed by you to the Claim Notice, explicitly
authorizing the attorney to act on your behalf. Once a Claim Notice is sent, the Complaining Party must give the Defending
Party a reasonable opportunity over the next 30 days to resolve the Claim on an individual basis. The Claimant must
reasonably cooperate in providing any information about the Claim that the Defending Party reasonably requests.

ARBITRATION CLAUSE—EXHIBIT A
We have put this Arbitration Clause (“Clause”) in question and answer form to make it easier to understand. However, this Clause is
part of this Agreement and is legally binding. For purposes of this Clause, our Notice Address is: UNICORN Credit Card Services,
Attention: Legal, P.O. Box 63688, Philadelphia, PA 19147.
Background and Scope.

Question

Short Answer

Further Detail

What is
arbitration?

An alternative
to a court case

In arbitration, a third party arbitrator (“TPA”) resolves “Claims” (as defined below) in a
hearing. It is less formal than a court case.

Is it different
from court and
jury trials?

Yes

The hearing is private. There is no jury. It is usually less formal, faster and less expensive than
a lawsuit. Pre-hearing fact finding (called “discovery”) is limited. Appeals are limited. Courts
rarely overturn arbitration awards.

Can you opt-out
of this Clause?

Yes, within 60
days

If you do not want this Clause to apply, you must send us a signed notice within 60 calendar
days after you agree to this Agreement. You must send the notice in writing (and not
electronically) to our Notice Address, Attn. Arbitration Opt-Out Notice. Provide your name,
address and date. State that you “opt out” of the arbitration clause.

What is this
Clause about?

The parties'
agreement to
arbitrate
Claims

Unless you are a member of the Armed Forces or a dependent of such a member, protected by
the MLA (a “Covered Borrower”) or unless you opt out, you and we agree that any party may
elect to arbitrate or require arbitration of any "Claim" as defined below.

Who does the
Clause cover?

You, us, and
certain
"Related
Parties"

This Clause governs you, us and our “Related Parties": (1) our parents, subsidiaries and
affiliates; (2) employees, directors, officers, shareholders, members and representatives of ours
or such other entities; and (3) any person or company that is involved in a Claim you pursue at
the same time you pursue a related Claim against the Bank. However, this Clause does not
apply if you are a Covered Borrower.

All Claims
(except certain
Claims about
this Clause)

This Clause governs all “Claims” that would usually be decided in court and are between the
Bank or any Related Party and you. In this Clause, the word “Claims” has the broadest
reasonable meaning. It includes contract and tort (including intentional tort) claims and claims
under constitutions, statutes, ordinances, rules and regulations. It includes all claims even
indirectly related to the Card or Account, your application for the Account, this Agreement or
our relationship with you. It includes claims related to collections, privacy and customer
information. It includes claims related to the validity in general of this Agreement. However, it
does not include Claims about the validity, coverage or scope of this Clause or any part of
this Clause. All such Claims are for a court and not the TPA to decide.

What Claims
does the Clause
cover?

Arbitrations are conducted under this Clause and the rules of the arbitration company in effect
at the time the arbitration is commenced. However, arbitration rules that conflict with this
Clause do not apply. The arbitration company will be either:

Who handles the
arbitration?

•

The American Arbitration Association ("AAA"), 1633 Broadway, 10th Floor, New York,
NY 10019, www.adr.org.

•

JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com.

•

Any other company picked by agreement of the parties.

Usually AAA
or JAMS

If all the above options are unavailable, a court will pick the arbitration company. No

12

Question

Short Answer

Further Detail
arbitration brought on a class basis may be administered without our consent by any
arbitration company that would permit class arbitration under this Clause. The TPA will
be selected under the arbitration company's rules. However, the arbitrator must be a lawyer with
at least ten years of experience or a retired judge unless you and we otherwise agree.

Can Claims be
brought in
court?

Sometimes

You or we may bring a lawsuit if the other party does not demand arbitration. We will not
demand arbitration of any lawsuit you bring as an individual action in small-claims court.
However, we may demand arbitration of any appeal of a small-claims decision or any smallclaims action brought on a class basis.
For Claims subject to this Clause, you give up your right to:

Are you giving
up any rights?

Yes

1.

Have juries decide Claims.

2.

Have courts, other than small-claims courts, decide Claims.

3.

Serve as a private attorney general or in a representative capacity.

4.

Join a Claim you have with a Claim by other consumers.

5.

Bring or be a class member in a class action or class arbitration.

We also give up the right to a jury trial and to have courts decide Claims you wish to
arbitrate.
Can you or
another
consumer start
class
arbitration?
What happens if
part of this
Clause cannot
be enforced?

No

It depends.

The TPA is not allowed to handle any Claim on a class or representative basis. All Claims
subject to this Clause must be decided in an individual arbitration or an individual small-claims
action. This Clause will be void if a court rules that the TPA can decide a Claim on a class basis
and the court's ruling is not reversed on appeal.
If any portion of this Clause cannot be enforced, the rest of this Clause will continue to apply,
except that:

(A)

If a court rules that the TPA can decide a Claim on a class or other representative
basis and the court's ruling is not reversed on appeal, only this sentence will apply and the
remainder of this Clause will be void. AND

(B)

If a party brings a Claim seeking public injunctive relief and a court determines that
the restrictions in this Clause prohibiting the TPA from awarding relief on behalf of third
parties are unenforceable with respect to such Claim (and that determination becomes final
after all appeals have been exhausted), the Claim for public injunctive relief will be determined
in court and any individual Claims seeking monetary relief will be arbitrated. In such a case
the parties agree to request that the court stay the Claim for public injunctive relief until the
arbitration award pertaining to individual relief has been entered in court.
In no event will a Claim for class relief or public injunctive relief be arbitrated.

What law
applies?

13

The Federal
Arbitration
Act (“FAA”)

This agreement involves interstate commerce. Thus, the FAA governs this Clause. The TPA
must apply substantive law consistent with the FAA. The TPA must honor statutes of limitation
and privilege rights. Punitive damages are governed by the constitutional standards that apply
in judicial proceedings.

Question
Will anything
you do make
this Clause
ineffective?

Short Answer

No

Further Detail

This Clause stays in force even if: (1) this Agreement ends; or (2) we transfer or assign our
rights under this Agreement.

Process.

Question
What must a
party do before
starting a
lawsuit or
arbitration?

Short Answer

Further Detail

Send a written
Claim Notice
and work to
resolve the
Claim

Before starting a lawsuit or arbitration, the Claimant must comply with Section 10-I of this
Agreement, captioned “Notice and Cure.”

How does
arbitration
start?

Mailing a
notice

If the parties do not reach an agreement to resolve the Claim within 30 days after notice of the
Claim is received, the Complaining Party may start a lawsuit or arbitration, subject to the terms
of this Clause. To start arbitration, the Complaining Party picks the arbitration company and
follows the arbitration company's rules. If one party starts or threatens a lawsuit, the other party
can demand arbitration. This demand can be made in court papers. It can be made if a party
starts a lawsuit on an individual basis and then tries to pursue a class action. Once an arbitration
demand is made, no lawsuit can be brought and any existing lawsuit must stop.

Will any hearing
be held nearby?

Yes

The TPA may decide that an in-person hearing is unnecessary and that he or she can resolve a
Claim based on written filings and/or a conference call. However, any in-person arbitration
hearing must be held at a place reasonably convenient to you.

What about
appeals?

Very limited

Appeal rights under the FAA are very limited. The TPA's decision will be final and binding,
except for any FAA appeal right. Any appropriate court may enter judgment upon the
arbitrator's award.

No

No arbitration award involving the parties will have any impact as to issues or claims in any
dispute involving anyone who is not a party to the arbitration, nor will an arbitration award in
prior disputes involving other parties have any impact in an arbitration between the parties to
this Clause.

Do arbitration
awards affect
other disputes?

Arbitration Fees and Awards.

Question
Who bears
arbitration fees?
When will we
cover your legal
fees and costs?

14

Short Answer

Further Detail

Usually, we do

We will pay all filing, administrative, hearing and TPA fees if you act in good faith, cannot get
a waiver of such fees and ask us to pay.

If you win

If you win an arbitration, we will pay your reasonable fees and costs for attorneys, experts and
witnesses. We will also pay these amounts if required under applicable law or the arbitration
company's rules or if payment is required to enforce this Clause. The TPA shall not limit his or
her award of these amounts because your Claim is for a small amount.

Question
Will you us for
arbitration or
attorneys' fees?

Short Answer

Only for bad
faith

Further Detail
The TPA can require you to pay fees incurred by us if (and only if): (1) the TPA finds that you
have acted in bad faith (as measured by the standards set forth in Federal Rule of Civil
Procedure 11(b)); and (2) this power does not make this Clause invalid.

Can a failure to
resolve a Claim
informally result
in a larger
recovery for
you?

Yes

You are entitled to an arbitration award of at least $5,000 if: (1) you give us notice of a Claim
on your own behalf (and not on behalf of any other party) and comply with all of the
requirements of this Clause (including the requirements described in response to the question
reading "What must a party do before starting a lawsuit or arbitration?)"; and (2) the TPA
awards you money damages greater than the last amount you requested at least ten days before
the arbitration commenced. This is in addition to the attorneys' fees and expenses (including
expert witness fees and costs) to which you are otherwise entitled. This $5,000 minimum award
is a single award that applies to all Claims you have raised or could have raised in the
arbitration. Multiple awards of $5,000 are not contemplated by this Clause. Settlement demands
and offers are strictly confidential. They may not be used in any proceeding by either party
except to justify a minimum recovery of $5,000.

Can an award
be explained?

Yes

A party may request details from the TPA, within 14 days of the ruling. Upon such request, the
TPA will explain the ruling in writing.

15

ADDITIONAL NOTICES AND DISCLOSURES—EXHIBIT B
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Periodic Statement
If you think there is an error on your statement, please call us at the toll-free number on the back of your card or write to us at:
Card Services
P.O. Box 63688
Philadelphia, PA 19147
In your letter, give us the following information:
•

Card information: Your name and account number.

•

Dollar amount: The dollar amount of the suspected error.

•

Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.

You must contact us:
•

Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.

•

The charge in question may remain on your statement, and we may continue to charge you Interest on that amount.

•

While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

•

We can apply any unpaid amount against your Credit Limit.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any Interest or other Fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable Interest and
Fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:

16

1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to
you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, please call us at the toll-free number on the back of
your card or write to us at:
Card Services
P.O. Box 63688
Philadelphia, PA 19147
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
State Notices
Notice to California Residents: Married applicants may apply for a separate account(s).
Notice to Delaware and Oregon Residents: Service charges not in excess of those permitted by law will be charged on the
outstanding balance from month to month. You may pay more than the minimum payment due, up to your entire balance, at any
time.
Notice to New York Residents: New York Residents may contact the New York State Department of Financial Services by
telephone or visit its website for free information on comparative credit card rates, fees and grace periods. New York State
Department of Financial Services: 1-800-342-3736 or http://www.dfs.ny.gov.
Notice to Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to
all creditworthy customers, and that credit reporting agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.
Notice to Rhode Island and Vermont Residents: A consumer credit report may be ordered in connection with this
application, or subsequently for purposes of review or collection of the Account, increasing the credit line on the Account,
or other legitimate purposes associated with the Account. If you are a Vermont resident, you consent to the obtaining of such
reports by signing or otherwise submitting a credit application.
Notice to Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement under Section
766.59 of the Wisconsin Statutes or court decree under Section 766.70, adversely affects the Interest of the creditor, WSFS
Bank, unless WSFS Bank, prior to the time of the credit is granted, is furnished a copy of that agreement, statement or decree,
or has actual knowledge of the adverse provision when the obligation to WSFS Bank is incurred. YOU PROMISE IF YOU
ARE MARRIED, CREDIT EXTENDED UNDER THIS ACCOUNT WILL BE INCURRED IN THE INTEREST OF YOUR
MARRIAGE OR FAMILY. Married applicants must provide their Social Security number and address and their spouse's name
and address to UNICORN Credit Card Services, P.O. Box 63688, Philadelphia, PA 19147. If the card for which you are
applying is granted, you will notify WSFS Bank if you have a spouse who needs to receive notification that credit has been
extended to you.

17

UNICORN CARD PRICING INFORMATION
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

17.76%
This APR will vary with the market based on the Prime Rate.*

APR for Cash Advances

24.99%

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each Billing Cycle. We will
not charge you any Interest on purchases if you pay your entire balance by the
due date each month.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees

None

Penalty Fees
• Late Payment

Up to $25.

• Returned Payment

Up to $25.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new
purchases)." See section 4.E. (Balances Subject to Interest Rates) of the Unicorn Credit Card Cardholder
Agreement for more details.
*Prime Rate: The Purchases APR on Unicorn Credit Card accounts will be determined each Billing Cycle by
adding a 14.51% margin to the Prime Rate (U.S.) as published in The Wall Street Journal which was 3.25% as
of the end of the preceding calendar month. See section 4.B. (Variable APRs) of the Unicorn Credit Card
Cardholder Agreement for more details.

